U.S. C;OVERN;vIENT PRlf\:TIN(j OFj·jCI                                            WilliAM J. BOARMAN
ICoop,ng   Amoilcu   Informed! I'II'IW_9PO gOY                                    Publ,e Prlllier 0; the Un,jed St<lte:




May 31, 2011


The Honorable Charles E. Schumer
Chairman
Joint Committee on Printing
318 Russell Seriate Office Building
Washington, DC 20510

Dear Mr. Chairman:

In accordance with 44 U.S.c. 3903 and the relevant provisions of the Inspector General
Act of 1978, as amended, the Inspector General (IG) of the Government Printing Office
(GPO), is required to furnish me with his semiannual report summarizing the activities of
GPO's Office of the Inspector General (OIG) during the period October 1,2010, through
March 31, 2011. I am then required to transmit this report to the appropriate committees
or subcommittees of the Congress within thirty days after I receive it, together with any
comments and other information as required by law. Notwithstanding the fact that the
enclosed semiannual report has already been transmitted to certain congressional staff
without the other information required by law, this letter meets my statutory obligation to
provide comments on this semiannual report and highlights management actions taken on
the OIG's recommendations, which may relate to more than one reporting period.

General Comments. I took office in early January 2011. The IG who prepared the
attached semiannual report resigned effective May 7. In his place I have appointed an
interim IG to serve while a search for a new IG is conducted. The issues covered in the
enclosed semiannual report are of concern to me, and comments are included below on
the report's discussion of management issues and the status of open recommendations.
Before proceeding, however, I want to provide an overview of conditions as I found them
when I arrived at GPO and the initial actions taken to address them, as well other general
comments on this semiannual report.

Status afGPO. As I stated in a hearing conducted May 11,2011, before the
Subcommittee on Oversight of the House Administration Committee, when I arrived at
GPO I found an agency where overhead costs had increased by 50% in the past 5 years.
This should be a concern to Congress, because today approximately 33 cents of every
dollar spent on congressional printing must go to cover GPO overhead costs, including
costs for buildings, security, and all general and administrative agency expenses, as well
as the cost of GPO's OIG. I found a GPO organization that was top heavy with senior-
level managers, some of whom spent what was in my opinion an excessive amount of
time on travel, including non-essential travel overseas, as well as excessive spending in
other discretionary accounts. I found essential GPO information technology systems,
such as the development of the Federal Digital System (FDsys) and Oracle, dependent



732 North Capitol Street. NW, Wil5hlngtoo. DC 20401-0001   j   wbonrmnn@gpo.gov
The Honorable Charles E. Schumer - Page 2


upon the support of expensive Government contractors. I also found an unresolved
problem of unrecovered payments owed to GPO by Federal agencies, known as
chargebacks.

Spending Reductions Implemented. This pattern of excessive spending and unrecovered
funds was unsu~tainable. In response, we cut GPO's appropriations request for FY 2012
by more than $5 miIlion from what was originaIly submitted to the Office of
Management and Budget late last year, and then worked with the House and Senate
appropriations committees to resolve our funding for FY 2011 at about $135.1 miIIion, a
significant reduction from the continuing level of $147.4 miIIion earlier this year and the
$166.6 miIIion originaIly requested by GPO a year ago. We cut GPO's annual spending
plan for FY 2011 as previously submitted to the Joint Committee on Printing by $15
miIIion. We reduced the number of senior-level managers. We implemented controls on
hiring, travel (especiaIly non-essential travel overseas), and related discretionary accounts
to stem the flow of spending in these areas. We created a task force of Finance and
Customer Services personnel to deal with chargebacks and recover outstanding payments
from Federal agencies. We realigned GPO's organization so the Chief Financial Officer
reports directly to me rather than through subordinate officers. Because I viewed these
vacant positions to be critical to GPO's future, we appointed a new ChiefInformation
Officer and new Chief Technology Officer to oversee GPO's information technology
operations and FDsys. At the same time, we are looking for opportunities to reduce
GPO's expensive dependency on contractor operations of essential agency functions. We
have surveyed GPO's buildings and identified additional space we can make available for
the use of other Government agencies, which wiII help GPO cover its costs.

Service Improvement Actions. With reduced funding, GPO must strive to do more with
less in all areas of our operations, and our continued use of technology is a key to that
objective. We issued a strategic plan developed and endorsed by GPO's senior managers
that emphasizes the importance of customer service. Because the citizenry is one of our
most important customers, we inaugurated a Facebook page for GPO, implemented a new
project to make Federal court opinions publicly available online, and expanded our
partnership with Google Books, which is our entry into the e-book market, to include
Federal consumer-oriented information made available by the GSA. With the Library of
Congress, we are working on the digitization of historical issues of the Congressional
Record and are coIlaborating on new Web interface for the Constitution Annotated, as
approved by the Joint Committee on Printing. We have also signaled support for pending
legislation to provide public access through FDsys to Federal agency reports filed with
Congress. We are pursuing additional revenue opportunities, particularly in the field of
secure credentialing. We want to expand utilization of our printing procurement
capability by Federal agencies to improve savings on Government printing for taxpayers,
and have had preliminary discussions with the private sector on how best to accomplish
that. In the Federal Depository Library Program, we are working with the Depository
Library Council to the Public Printer and the community to reach consensus on how to



U_S.   Government Pflotlog Offlco, 732 North Capitol Street, NW, Washington, DC 20401·0001   ! www.gpo.gov
The Honorable Charles E. Schumer - Page 3


bring more flexibility to the Program while ensuring that it is sustainable and more robust
in the 21 st Century.

GPO's Technology Record and Congressional Printing. The semiannual report includes
a message commenting on the digital revolution and the need for "real-time access to
information in a usable, searchable, and sustainable electronic format." This is a widely-
held and longstanding objective of GPO and the varied communities we serve: Congress,
Federal agencies, the courts, and the public. The characterization of the development of
FDsys as a "first step" is mistaken, however. FDsys is in fact the enhanced successor
technology to free online public access to information produced by all three branches of
the Federal Government provided by GPO since 1994, which itself descended from
GPO's embrace of computerized production technologies dating back more than a
generation. Since that time, GPO's use of electronic production and other information
technologies has resulted in significant and lasting cost reductions in providing products
and services to Congress and Federal agencies, yielding productivity improvements that
have exponentially expanded public access to Government information while decreasing
GPO's workforce to its lowest level in more than a century. These are achievements
worthy of Congress' recognition.

GPO is well aware that Congress' need for printing is changing; indeed, it has been the
online technologies and the online databases of congressional information prepared by
GPO and used by both GPO and the Library of Congress that have helped make
Congress' transition from printing possible over the past several years. We also are well
aware ofiegislation that has been introduced in this Congress affecting congressional and
other printing. However, it is important to recognize that GPO prints only in response to
congressional orders and has no authority to refuse to fulfill those orders. We recently
launched a comprehensive online survey of congressional offices about their need for
printed products from GPO, including the Congressional Record and Office of Federal
Register products, the first time in memory that any such survey has been undertaken.
We recognize that GPO can operate more efficiently in support of Congress. But as I
told both the House Administration Committee's Subcommittee on Oversight and the
House Legislative Branch Appropriations Subcommittee, we must beware of the false
economy of opting for a system that relies instead on expensive printing off office
printers, which may result ifiegislation proposed to reduce printing bills and the
Congressional Record is enacted.

Opportunities for Savings in Federal Printing. I was disappointed to see that the
semiannual report neglects to mention additional opportunities for achieving savings in
Federal printing, which GPO by law is charged with producing. Data published by the
Office of Management and Budget as part of the FY 2012 budget shows $1.3 71 billion in
direct obligations for printing and reproduction for the Federal Government for FY 20 I O.
Excluding GPO's component of$104 million for congressional work and printing for our
Superintendent of Documents, this leaves nearly $1.3 billion of direct printing obligations



US   Govornment Printing Office, 732 North Capitol Street, NW, Watlhlnglon. DC 20401-0001   I www.gpo.gov
The Honorable Charles E. Schumer - Page 4


for the rest of the Government. GPO's procurement revenue last year was about $500
million, or about 40% of these direct obligations, leaving a balance of about $800 million
that did not come through GPO. This most likely represents work produced in-house by
Federal agencies. That is a significant volume of printing that, if opened up to GPO's
highly competitive and cost-effective printing procurement program-where costs could
be reduced by as much as 50% compared with agency plants-could represent an
additional savings of up to $400 million for taxpayers annually. GPO currently has more
than 16,000 vendors registered to do business with us and we annually award contracts to
2,500-3,500 firms. To handle the additional volume of work flowing through the
procurement program, more private sector jobs would be needed, helping our Nation's
economic recovery. As long as the Government continues to order printing, GPO's
printing procurement program offers the most cost-effective way of achieving it. With
the annual Federal printing bill projected to be in excess of$1 billion in the next fiscal
year, a concerted effort to control these costs must be made. In addition to the cost
savings, when agencies procure their printing through GPO, the titles are cataloged in our
Catalog of Government Publications and are made available in either digital or tangible
form to Federal depository libraries, thereby making them easily accessible to the public.
GPO's OIG can contribute to this effort by working to educate other Federal OIGs about
the requirements of Title 44, U.S.C., and the savings that can be generated by improved
compliance with the law on the part of Federal agencies. I look forward to seeing this
issue addressed in future semiannual reports.

I.      Management Challenges. These comprise program areas determined by the
        OIG to be critical for GPO to address.

        I.      Customer Service: As the semiannual report notes, GPO has established
        customer service as its primary strategic goal. GPO has also evaluated legislation
        that has been introduced in the House and Senate concerning congressional
        printing. Unaddressed by the legislation is how to reconcile the incremental costs
        of production by GPO, at rates ranging from 5.5 cents per page down to 1.3 cents
        per page, as compared with printing out online documents on office laser printers,
        at costs of up to 6.7 cents per pages. If congressional printing continues to be
        required, whether for immediate or archival needs, it makes more sense to choose
        the most economical means of producing it-through GPO's systems-rather
        than transferring this added expense to congressional offices or to the public.

        Regarding the longstanding problem of chargebacks, GPO has established a
        multi-disciplinary task force to work on and reduce the existing volume of
        chargebacks, re-engineer internal GPO processes and implement computer system
        changes so that many of the GPO caused chargebacks will be eliminated, and
        meet with the customer agencies that are the major sources of customer-caused
        chargebacks. In a period of serious funding constraints for GPO, it is imperative
        that this problem be brought under control. Although the OIG cannot participate



U,S   Government Printing Office, 732 North Capitol Street, NW, Washington. DC 20401-0001 ! www.gpo.gov
The Honorable Charles E. Schumer - Page 5


          in this task force, GPO management would welcome contributions by the OIG in
          the overall effort to address and reduce the problem of chargebacks. The last in-
          depth OIG review of the matter appears to have been in 2004.

          2.      Human Capital Operations and Management: Concerning GPO's
          delegated competitive examining (DE) operations, the new Human Capital (HC)
          Manager of Talent Acquisition has an extensive background in the DE hiring
          process. She has recruited several DE-certified senior staff members. She
          currently ensures efficient and compliant DE operations, provides experienced
          and consistent guidance for her staff regarding DE processes, and will only allow
          DE-certified specialists to perform DE work. She has reviewed the critical on-
          boarding process for new hires to resolve any remaining problems. HC will
          continue to conduct annual DE self-audits and HC managers are committed to
          addressing all audit findings to ensure a fully compliant program.

          With respect to the OIG payroll audit, the high number of employees on leave
          without pay (L WOP) over the past 2 fiscal years is indeed remarkable,
          particularly in view of the increase in overtime payments. GPO's Finance and IT
          organizations have provided the OIG with numerous reports on overtime, LWOP,
          and Absent Without Leave (AWOL) use in order for them to conduct this audit,
          and GPO management awaits the final report, which apparently was initiated last
          summer.

          3.     Federal Digital System: Following my arrival at GPO, I was briefed on
          the Federal Digital System (FDsys). The background on how this system came to
          be and how FDsys got to where it is now is instructive.

          In the early 2000s, the limitations of GPO's first online public access system,
          GPO Access-which had been developed with no new funding, but instead
          financed through savings resulting from reductions in printing-had become
          readily apparent. The system relied on a dated search and retrieval system called
          WAIS (Wide Area Information System) with limited capabilities, a fact
          acknowledged in GPO's appropriations requests for fiscal years 2003 and 2004,
          when funds were requested to upgrade the system. GPO Access was also unable
          to function as a platform for other digital ingest, storage, production, and
          dissemination capabilities. As a remedy, in 2004 then-GPO management
          proposed the development of a new system, eventually named the Federal Digital
          System or FDsys, to "organize, manage, and output authenticated content for any
          use or purpose and to preserve the content independent of specific hardware or
          software so that it can be migrated forward and preserved for the benefit of future
          generations," according to the 2004 GPO Strategic Vision. It would be designed
          to house "all known Federal Government documents within the scope of the
          Federal Depository Library Program, whether printed or born digital." These



U.S.   Government Printing Office, 732 North Capitol Street, NW, Washington, DC 20401-00011   '/lww.gpo.gov
The Honorable Charles E. Schumer - Page 6


         would be "cataloged and authenticated and then entered into a system according
         to GPO metadata and document creation standards," to be available later for
         "Web searching and Internet viewing, downloading and printing, and as document
         masters for conventional and on-demand printing, or other digital requirements."
         The system was to be developed in three stages, or releases, with Release I
         equivalent to a replacement of GPO Access with new search and retrieval
         capabilities and other enhancements. Release I ofFDsys went live in early 2009.
         Once all of the databases were migrated and upgraded from GPO Access to
         FDsys, GPO Access was slated for shut down.

         In my view, the previous GPO management plan for FDsys was unrealistic in
         view of the nature of the task and the methodology used to implement it compared
         with originally targeted costs and schedule. Originally slated to cost $29 million
         to develop in its entirety, the cost to date to develop Release I-essentially
         constituting the replacement of GPO Access, but with significantly new
         capabilities-has been $45 million, according to the semiannual report. Part of
         this cost-approximately $11 million-was incurred in the unforeseen difficulty
         of migrating databases from GPO Access to FDsys, a process that took much
         longer than originally planned, resulting in project delays. According to previous
         GPO management, part of the problem was in early misdirection of the project,
         which resulted in the loss of an estimated $8 to $10 million. (There may yet have
         been other factors, as the OIG's ongoing audit of the FDsys Master Integrator
         Contract may disclose). The development of the project was placed substantially
         in the hands of expensive Government contractors, which also led to increased
         costs. With tightening budget constraints and ever-growing public expectations
         for access to digital Government information, GPO cannot afford to continue on
         this path.

        The good news is that the foundational components of Release I-content
        submission, content management and preservation, and content access and
        delivery-are in place. The system debuted to generally positive reviews, as the
        semiannual report notes. While there are program tracking reports that are still
        open, I am told the bulk of those remaining are related to data and data quality,
        not critical system issues. Additionally, FDsys has enabled new initiatives such
        as the Federal Register 2.0 Web site and support for the Administration's
        data.gov, and it will be the site for public access to digitized historical documents,
        a new interface for the Constitution Annotated, and potentially for the collection
        of Federal agency reports filed with Congress. GPO continues to work on the
        issues of permanence and preservation of electronic records (to date, only paper
        and microfiche have been shown to be trustworthy media for document
        permanence), and we plan to have an independent external TRAC (for Trusted
        Repositories Audit and Certification) audit ofFDsys. Fewer than five repositories




U.S   Government Printing Office, 732 North Capitol Street, NW, Washington, DC 20401-0001 ! www.gpo.gov
The Honorable Charles E. Schumer - Page 7


         have qualified to be TRAC certified to date, and FDsys would be the first in the
         Federal Govemment.

         GPO management is evaluating the future direction ofFDsys development
         activities to maximize the value of the limited dollars available for this project as
         a result of the reduction of appropriated funds to GPO's revolving fund in the
         final FY20 II appropriations act. Under current system plans, an additional $11.2
         million will be needed to deliver currently known features and requirements. An
         additional $3 million will be needed for technology refresh (hardware and
         software), and the annual costs to operate the system are estimated at $2.5 million.
         These spending plans will be depend on available funds, which we are making
         efforts to assure to the extent possible. Due to recent management actions, FDsys
         will be under budget for FY 20 II, and we are looking for opportunities to reduce
         GPO dependence on Govemment contractors for the operation of this essential
         function. Conceming the duplication of effort in maintaining FDsys and GPO
         Access, it is true that running systems in parallel represents additional costs.
         However, these additional costs are justified as a risk mitigation exercise until we
         are assured that all content has been successfully migrated from GPO Access to
         FDsys. The current target for the transition is late 20 II.

         Finally, FDsys is under new management with the recent appointment of a new
         Chief Technology Officer, who will work with both GPO's newly-appointed
         ChiefInformation Officer and the new Superintendent of Documents to ensure
         that the future development and operation of FDsys is consistent with the needs
         and expectations of Congress, Federal agencies, and Govemment information
         users, within the limits of available funding.

         (4)     Information Technology Security Management: As noted in the
         semiannual report, the OIG closed open audit recommendations from the previous
         Federal Information Security Management Act (FISMA) assessments in this
         period. Areas offocus for the remainder ofFY 2011 include patching of desktop
         systems, completing a contingency plan for Information Technology and Services
         (IT &S) systems, completing Privacy Impact Assessments for remaining key
         systems, and implementing a tracking system for accreditation of major systems.
         As noted above, GPO's Information Technology and Services is under the
         direction of a new Chief Information Officer, and we expect to close additional
         OIG audit recommendations relating to GPO's IT systems in the next reporting
         period.

         (5)   Acquisitions and Printing Procurement: The independent assessment of
         GPO's Acquisition Services recommended by the OIG last year was not
         conducted by previous GPO management. Current management is planning to
         conduct an assessment. Management is evaluating the relevant OMB Circular



U,S   Government Printing Office, 732 North Capitol Street, NW, Washington,   DC 20401·0001   ! www.gpo.gov
The Honorable Charles E. Schumer - Page 8


         and supporting Government Accountability Office framework in determining the
         scope ofthe assessment.

        Regarding contract management, Customer Services has issued a revised Printing
        Procurement Regulation, tightened the rules regarding the GPO Contract Review
        Board oversight, and is continuing to have contracting personnel certified through
        training In accordance with Federal Acquisition Institute standards. GPO's
        Acquisition Service has instituted a review process for contract files and utilizes
        the Contract Review Board process prior to making an award for any procurement
        greater than $100,000. The Director of Acquisition is currently revising outdated
        internal controls. Acquisition staff have met the mandatory training for level
        certification and continue to provide training to contracting staffto keep abreast
        of changes pertaining to processes, regulations, and laws. A refresher course in
        utilizing Oracle was recently conducted and a quarterly training session will be
        continued to keep staff up to date with changes.

        (6)      Continuity ojOperations (COOP): GPO has included COOP in its
        Strategic Plan for FY 2011-15, and is working to implement actions that address
        the risks and problems with COOP identified by the OIG. In addition, the agency
        is working with Congress and other Federal entities to establish the appropriate
        procedures to be followed in the event of an emergency affecting GPO operations.

        (7)     Internal Controls: Among the internal controls implemented recently are
        actions to control travel, including non-essential travel to overseas destinations;
        personal services contracts; non-essential hiring, and related discretionary
        accounts.

        Concerning laptop computers, the equipment used by GPO personnel involved in
        the manufacture and issuance of U.S. passports was accounted for by GPO,
        subsequent to publication ofthe OIG report, and therefore there was no potential
        for the inadvertent exposure of any GPO data related to that process. GPO is
        taking actions to improve procedures, accountability, and awareness on this topic,
        including an update to the property management directive which will lead to more
        effective procedures. Additionally, a hands-on inventory and reconciliation
        activity for all agency laptops is nearing completion.

        In the area ofIT general and application controls, there were OIG audit
        recommendations that were successfully closed from the previous KPMG audit.
        Efforts on remaining recommendations continue. Many of these remaining
        recommendations require significant resources to be expended by GPO and are
        focused on accreditation documentation for legacy agency systems that were
        implemented decades ago, and which have operated successfully for that period.
        GPO is assessing, from an integrated risk management and business perspective,



U,S   Government Printing Qlhee, 732 North Capitol Street, NW. Washington, DC 20401-0001   I www.gpo.gov
The Honorable Charles E. Schumer - Page 9


        these open audit recommendations and plans to produce a closure plan for these
        IT general and application control items.

        (8)     Protection ofSensitive Information: During the semiannual reporting
        period, GPO established an agency-wide baseline of privacy data in accordance
        with GPO Directive 825.41, and a Privacy Incident Response Team (PIRT)
        procedure, which includes establishment of a Privacy Incident Response Team
        (consisting of members from across various offices and disciplines of the agency,
        including the General Counsel's office, IT&S and others).

        (9)      Financial Management and Peiformance: As noted above, GPO has
        established a project to reduce volume of chargebacks. GPO will also evaluate
        the provisions of the Improper Payments Elimination Improvement Act of2010
        for their applicability to GPO's operations and programs.

        (J 0) Sustainable Environmental Stewardship: GPO has an extensive record of
        implementing environmental measures in its operations, including the use of
        recycled paper (initial efforts date to 1972, with use of 100% recycled
        postconsumer waste newsprint for the Congressional Record first occurring from
        1991-97 and resuming in 2009); the use of vegetable oil-based inks in accordance
        with legislation enacted in 1994 with GPO's support; projects to improve energy
        efficiency, including the installation of energy-saving air chillers and lighting in
        the early 2000s; and other environmental measures such as the ongoing work to
        complete the installation of a new roof that is energy efficient, continuing
        reductions in volatile organic compound emissions and hazardous waste usage,
        and related actions. GPO has implemented monitoring measures to more
        effectively gauge the use of steam supplied by the Architect of the Capitol, which
        comprises the single largest annual utility expense for our buildings. Other
        measures are underway or are planned, consistent with their proven contribution
        to energy efficiency or other sustainability improvements, and within the
        limitations of available funds.

H. Audits and Inspections. During the reporting period, the OIG issued 6 new audit
and assessment reports, including the annual financial statement audit report, with
recommendations to help improve operational performance:

        •       Government Printing Office's Ethics Program (Audit Report 11-01,
        December 16,2010). This audit of GPO's ethics program did not identify
        specific instances of ethics violations or noncompliance, but did find that GPO
        could improve its ethics program to be more consistent with Federal Government
        best practices, some involving documentation practices and others based on the
        findings of an employee survey on GPO's ethical climate at the time. The report
        made recommendations to improve the program; management generally



US   Government Printing Office, 732 North Capito! Street, NW, Washington, DC 20401·0001 1 I'Iww.gpo.gov
The Honorable Charles E. Schumer - Page 10


        concurred with them and has planned corrective actions that are considered by the
        orG to be responsive.

        •       Control and Accountability of Laptop Computers (Audit Report 11-02,
        December 6, 20 I 0). This was an audit of the control and accountability of laptop
        computers at GPO. The audit disclosed that because of lapses in property control
        and accountability for laptops GPO management could not account for between
        150 and 213 laptops, according to a statistical sample oflaptops issued between
        2005 and 2009. As noted above, the equipment used by GPO personnel involved
        in the manufacture and issuance of U.S. passports was accounted for by GPO,
        subsequent to publication ofthe OIG report, and therefore there was no potential
        for the inadvertent exposure of any GPO data related to that process. The report
        made recommendations to improve the accountability for laptops and
        management concurred with them.

        •        Federal Digital System (FDsys) Independent Verification and Validation-
        Thirteenth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 11-03, December 15,2010). This assessment continued the
        ongoing independent verification and validation (IV& V) evaluation associated
        with the development of FDsys. The evaluation provides quarterly observations
        and recommendations on the FDsys program's technical, schedule, and cost risks,
        as well as related issues. This IV& V did not identifY any new technical, cost, or
        schedule risks, but discusses issues and concerns associated with the remaining
        efforts to implement Release 1 and shut down GPO Access.

        •       Financial Statement Audit (Audit Report 11-04, December 21, 2010). As
        the semiannual report notes, GPO's independent financial auditor issued an
        unqualified opinion on GPO's FY 2010 financial statements. However, the
        auditor identified three significant deficiencies, which it did not consider to be
        material weaknesses: controls over special journal entries, control over human
        resource data, and IT general and application controls.

        •       Federal Digital System (FDsys) Independent Verification and Validation-
        Fourteenth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 11-05, March 29, 2011). As in the thirteenth quarter report,
        this assessment did not identifY any new technical, cost, or schedule risks. It
        identified several tasks yet to be completed before the shut down of GPO Access.

        •       Secure Card Personalization System Information Technology Security
        Controls (Audit Report 11-06, March 31, 2011). This report evaluated GPO's
        Secure Card Personalization System (SECAPS) to determine if adequate controls
        are in place to protect Personally Identifiable Information. The resulting sensitive
        report identified opportunities to strengthen these controls. Management



U,S. Government Printing Office. 732 North Capitol Street, NW, Washington, DC 20401·0001   I www.gpo.gov
The Honorable Charles E. Schumer - Page II


        concurred with the recommendations and has either taken or proposed responsive
        corrective actions.

Prior Period Outstanding Recommendations. As required by law, this section
summarizes management's actions to address OIG recommendations still outstanding
from previous reporting periods. A number of recommendations were closed during the
semiannual reporting period.

        •      Federal Digital System (FDsys) Independent Verification and Validation
        (IV & V) - Fourth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 09-01, November 4,2008). One recommendation remains
        open.

        •       Federal Digital System (FDsys) Independent Verification and Validation
        (IV & V) - Fifth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 09-03, December 24, 2008). One recommendation remains
        open.

        •      Federal Digital System (FDsys) Independent Verification and Validation
        (IV& V) - Sixth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 09-07, March 20, 2009). Two recommendations remain open.

        •      Federal Digital System (FDsys) Independent Verification and Validation
        (IV& V) - Seventh Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 09-12, September 30,2009). Nine recommendations remain
        open.

        •      Federal Digital System (FDsys) Independent Verification and Validation
        (IV& V) - Ninth Quarter Report on Risk Management, Issues, and Traceability
        (Assessment Report 10-01, December 2, 2009). Two recommendations remain
        open.

        •      GPO's Compliance with the Federal Information Security Management
        Act (Assessment Report 10-03, January 12, 20 I 0). As the OIG report states,
        management continues to work with the OIG to implement corrective actions on
        the remaining 13 open recommendations.

III. Investigations. During the reporting period, the OIG performed investigative work
on external cases involving procurement fraud and other violations, and internal cases
involving employee misconduct, time and attendance fraud, theft, false statements,
unauthorized use of property, and other matters, as detailed in the semiannual report. In
some cases this work resulted in debarments of contractors and in others in proposals for
GPO internal corrective action of employees. GPO management has taken corrective


u.s. Government Printing Ofl!ce, 732 North Capllol Street, NW, Washington, DC 20401-0001 ! www.gpo.gov
The Honorable Charles E. Schumer - Page 12


actions and will respond formally to the OIG's recommendations in the management
implication reports concerning supervisory controls in Plant Operations and management
of GPO surplus property.

IV. Statistical Tables. Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not hesitate to
contact Mr. Andrew M. Sherman, GPO's Congressional Relations Officer, on 202-512-
1991, or bye-mail at asherman@gpo.gov.

Sincerely,



diA-~-
WILL~ J. BOARMAN
Public Printer

Enclosures

cc:     The Honorable Robert Brady, Vice Chairman
        The Honorable Dan Lungren
        The Honorable Patty Murray
        The Honorable Tom Udall
        The Honorable Saxby Chambliss
        The Honorable Michael Capuano
        The Honorable Susan A. Davis
        The Honorable Kevin McCarthy




US. Government Printing Office, 732 North Capitol Street, NW, Washington, DC 20401-0001   ! www.gpo.gov
                                            ENCLOSURE I

         STATISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                         Number of       Disallowed Costs
                                                        Audit ReQorts Questioned UnsuQQorted
A.     Audit reports for which final action 1 had
       not been taken by the commencement
       of the reporting period                                 0               0           0

       Audit reports issued during the period
       with potential disallowed costs                         0               0           0

       Total Costs                                             0               0            0

B.     Audit reports on which management
       decisions' were made during the
       reporting period

       ( i.)    Dollar value of disallowed costs              0            0               0

       (ii. )   Dollar value of allowed costs                 0            0               0

C.     Audit reports for which final action
       was taken during the period, including:

       ( i.)    Dollar value of disallowed costs               0           0               0
                that were recovered by management
                through offsets against other
                contractor invoices or nonpayment

       (ii. )   Dollar value of disallowed costs                  0        0               0
                that were written off by management

D.     Audit reports for which no final                        0           0               0
       action has been taken by the end
       of the reporting period




1 As defined by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
2 As defined by law, the term "management decision" means the evaluation by management of the

findings and recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
                                          ENCLOSUREH


       STATISTICAL TABLE FOR SECTION 5(b)(3) - FUNDS PUT TO BETTER USE
                   AGREED TO IN A MANAGEMENT DECISION

                                                          Number of       Dollar Value of
                                                          Audit ReQorts   Recommendations
A.        Audit reports for which final action3 had
          not been taken by the commencement of
          the reporting period                                   0                   0

          Audit reports for which final action had
          not been taken for new reports issued
          during the reporting period with potential
          funds put to better use
                                                                0                    0
B.        Audit reports on which management
          decisions4 were made during the reporting
          period                                                0                    0

C.        Audit reports for which final action was
          taken during the reporting, including:

          ( i.)    Dollar value of recommendations
                   that were actually completed                 0                    0

          (ii. )   Dollar value of recommendations
                   that management has subsequently
                   concluded should not or could not
                   be implemented or completed                  0                    0

D.        Audit reports for which no final action has
          been taken by the end of the reporting period         0                    0




3   Same definition as in Enclosure I.
4   Same definition as in Enclosure I.
